U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Michael Ludwikowski v. United States, No. 19-1293
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 4, 2020.
The government’s response is now due, after one extension, on August 17, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 16, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-1293
LUDWIKOWSKI, MICHAEL
USA

LISA ANN MATHEWSON
THE LAW OFFICES OF LISA A. MATHEWSON,
LLC
123 S. BROAD STREET
SUITE 810
PHILADELPHIA, PA 19109
215-399-9592
LAM@MATHEWSON-LAW.COM

